<html>
<title> - CONTINUING REPRESSION BY THE VIETNAMESE GOVERNMENT</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                     CONTINUING REPRESSION BY THE 
                         VIETNAMESE GOVERNMENT

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 4, 2013

                               __________

                           Serial No. 113-70

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______



                  U.S. GOVERNMENT PRINTING OFFICE
81-340                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2146514e614254525549444d510f424e4c0f">[email&#160;protected]</a>  

                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida                  GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
TOM MARINO, Pennsylvania             KAREN BASS, California
RANDY K. WEBER SR., Texas            DAVID CICILLINE, Rhode Island
STEVE STOCKMAN, Texas                AMI BERA, California
MARK MEADOWS, North Carolina


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Anh ``Joseph'' Cao (former Member of Congress).....     6
Nguyen Dinh Thang, Ph.D., executive director, Boat People SOS....    16
Ms. Holly Ngo, victim of property confiscation...................    27
The Venerable Danh Tol, victim of religious persecution..........    33
Mr. John Sifton, Asia Advocacy director, Human Rights Watch......    51

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Anh ``Joseph'' Cao: Prepared statement.............    10
Nguyen Dinh Thang, Ph.D.: Prepared statement.....................    19
Ms. Holly Ngo: Prepared statement................................    29
The Venerable Danh Tol: Prepared statement.......................    35
Mr. John Sifton: Prepared statement..............................    54

                                APPENDIX

Hearing notice...................................................    78
Hearing minutes..................................................    79
Nguyen Dinh Thang, Ph.D.: Material submitted for the record......    80


           CONTINUING REPRESSION BY THE VIETNAMESE GOVERNMENT

                              ----------                              


                         TUESDAY, JUNE 4, 2013

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:46 p.m., in 
room 2172 Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The hearing will come to order and good 
afternoon to everyone.
    I do apologize for starting late. We had a series of 
hearings on the floor which made it impossible for all of us to 
be here, so thank you for your patience.
    I would like to begin by recognizing the many distinguished 
leaders who are joining us in conjunction with the Vietnamese-
American Meetup.
    Many thanks to all of you for taking the time to come to 
Washington, to meet with your representatives here in Congress 
and for joining us here for this hearing that will look at some 
of the many human rights abuses being committed by the 
Vietnamese Government.
    This is the second hearing held by this subcommittee, which 
handles human rights, on Vietnam this year. We'll be taking a 
greater in-depth examination of some of the fundamental human 
rights violations that we discussed at our first hearing in 
April, particularly land confiscations in the context of 
religious and ethnic persecution.
    Although the relationship between the United States and 
Vietnam improved substantially in 1995 when relations were 
normalized, the human rights situation in Vietnam did not 
improve.
    As the U.S. has upgraded Vietnam's trade status, the 
Vietnamese Government has continued to violate a wide range of 
fundamental human rights. To cite just one example, despite the 
State Department's decision in 2006 to remove Vietnam from the 
list of Countries of Particular Concern, or CPC, as designated 
pursuant to the International Religious Freedom Act, Vietnam 
continues to be among the worst violators of religious freedom 
in the world.
    According to the United States Commission for International 
Religious Freedom's 2012 annual report,

        ``The Government of Vietnam continues to control all 
        religious communities, restrict and penalize 
        independent religious practices severely, and repress 
        individuals and groups viewed as challenging its 
        authority.''

    The commission concludes that Vietnam should be designated 
a CPC country. It appears that the State Department decided to 
allow political considerations to trump the facts and the 
brutality of Vietnam's record of religious persecution.
    In the department's latest International Religious Freedom 
report that was released on May 20th, Vietnam once again was a 
glaring omission in the list of Countries of Particular 
Concern.
    Compared to the disturbing clarity of the U.S. Commission 
on International Religious Freedom report, or USCIRF, the State 
Department's description of the state of religious freedom in 
Vietnam is a whitewash and an extreme disservice to the truth 
about the religious persecution that is prevalent in that 
country.
    I repeat my past appeals to the administration to follow 
the letter as well as the spirit of the International Religious 
Freedom Act and hold Vietnam to account as a Country of 
Particular Concern.
    I met courageous religious leaders during my last trip to 
Vietnam who were struggling for fundamental human rights in 
their country. Unfortunately, many of them, including Father Ly 
and the Most Venerable Thich Quang Do, remain wrongly detained 
today.
    There are disturbing reports that Father Ly is suffering 
poor health. Leaders of religious organizations are not the 
only ones victimized by the Vietnamese Government on account of 
their faith. Individuals in small communities are also targeted 
by the regime.
    Witnesses and experts at our past hearings have recounted 
the brutality suffered in 2010 by Con Dau parishioners at the 
hands of police in the course of a funeral procession.
    This persecution continues to this day in response to the 
villagers' opposition to the illegal and unjust confiscation of 
their land.
    Today's hearing will take a closer examination of ethnic 
and religious persecution in Vietnam, particularly through the 
government's practice of confiscating land. The government has 
unlawfully taken property belonging to families that include 
many Vietnamese-Americans.
    Not only is land forcibly taken but any compensation 
provided by the government is far below the fair market value. 
If the rightful owners do not accept what is offered or show 
resistance, security forces are dispatched to overwhelm any 
opposition and brutally suppress them.
    The arbitrary taking of real property not only violates the 
Universal Declaration of Human Rights but even Vietnam's own 
domestic laws. To address this and numerous other violations of 
human rights by the Vietnamese regime, I have reintroduced the 
Vietnam Human Rights Act, H.R. 1897.
    This legislation, co-sponsored by a large number of members 
including our chairman, Chairman Royce, and members of the 
bipartisan Congressional Vietnam Caucus, has been reported out 
of this subcommittee and is awaiting consideration, hopefully 
soon, by the full committee.
    This legislation seeks to promote freedom and democracy in 
Vietnam by stipulating that the United States can increase its 
nonhumanitarian assistance to Vietnam above the 2012 levels 
only when the President certifies that the Government of 
Vietnam has made substantial progress in establishing democracy 
and promoting human rights including respecting freedom of 
religion and releasing all religious prisoners, respecting 
rights to freedom of expression, assembly and association, 
releasing all political prisoners, independent journalists and 
labor activists, repealing and revising laws that criminalize 
peaceful dissent, independent media, unsanctioned religious 
activity and nonviolent demonstrations in accordance with 
international human rights standards, respecting the human 
rights of members of all ethnic groups, and taking all 
appropriate steps including prosecution of government officials 
who have any complicity in human trafficking.
    It also calls on the administration to redesignate Vietnam 
as a Country of Particular Concern for religious freedom and 
takes measures to overcome the Vietnamese Government's jamming 
of Radio Free Asia and oppose Vietnam's membership on the U.N. 
Human Rights Council which will be voted on this fall.
    It also seeks to help those who have been denied the access 
to our refugee programs, many of whom, because of corruption, 
never got the break that they were entitled to.
    We are fortunate, again, to have a distinguished panel of 
witnesses here today to discuss these critical issues. I, and I 
know my colleagues, look forward to their testimony.
    I yield to my friend and colleague, the ranking member, Ms. 
Bass.
    Ms. Bass. Thank you, Mr. Chairman.
    In April, we previously held a hearing on Vietnam and the 
many human rights challenges faced by the Vietnamese people.
    In my remarks from that day, I noted that while there have 
been some advances in the government's crackdown on various 
freedoms, this is no means widespread.
    Human rights organizations including those that have 
presented to this committee in the past and those that are here 
today continue to document the full extent of the government's 
efforts to undermine and trample on the rights of its citizens.
    Mr. Chairman, I wish to yield my remaining time to open to 
my colleague, Representative Alan Lowenthal, who has a large 
constituency of Vietnamese.
    Mr. Lowenthal. Thank you, Mr. Chair, and thank you, Ranking 
Member Bass, for allowing me to address the subcommittee on 
this very important issue today.
    First, I want to begin by thanking all the distinguished--
all the members of this distinguished panel who are testifying 
before us today. Congressman Joseph Cao, it is an honor to see 
you again.
    I last saw you at the last hearing and I commend your 
dedication to upholding human rights in Vietnam, both in and 
out of Congress, and I'm happy, again, as I mentioned to see 
you once again before this committee.
    Ms. Holly Ngo, thank you for coming from all the way from 
Garden Grove, which is part of my district, to highlight the 
very, very important issue of the expropriation of property in 
Vietnam by the Vietnamese Government, an issue that affects 
literally thousands of Vietnamese-Americans.
    It's really the dedication of all of you on this panel and 
all of us that are in this room that continue to shine a 
spotlight on human rights violations in Vietnam and pressure 
the Government of Vietnam to put an end to these violations.
    This past weekend I hosted the United States Ambassador to 
Vietnam, Mr. David Shear, at a town hall meeting in my 
district. My meetings with Ambassador Shear reassured me that 
the United States continues its commitment to human rights 
improvements in Vietnam.
    Meanwhile, I'm also very much reminded by my constituents 
how important this issue is to them. I'm inspired--you know, 
one of the things it's not just those that were boat people who 
escaped from Vietnam but I am very inspired by the thousands of 
young Vietnamese-Americans who were born and raised in the 
United States who wish to fight for freedom and democracy in 
the land of their parents and their grandparents. I find that 
very, very important and impressive to hear that commitment.
    But, sadly, we hear today that human rights violations in 
Vietnam continue. They continue to increase as the government 
targets groups that include students, religious leaders, ethnic 
minorities, democracy activists and even United States citizens 
who offer their help are targeted.
    The United States and Vietnam in recent years have become 
closer trading partners and both have benefited from the 
increasing economic ties between our countries.
    As the people of Vietnam enjoy the benefits of our shared 
prosperity, the Vietnamese Government should also join us in 
recognizing the freedom and rights of every human being.
    As we continue to negotiate the Trans Pacific Partnership 
and we continue further economic ties with Vietnam, I believe 
we must insist that the government in Vietnam improve its 
record on human rights violations.
    We must work together to build a lasting relationship with 
Vietnam that is based upon respect for the basic freedoms for 
all, and I yield back my time and thank you.
    Mr. Smith. Thank you very much.
    Mr. Meadows.
    Mr. Meadows. Thank you, Mr. Chairman, and thank you for 
being with us today. Some of you, welcome back. It's good to 
see you again and certainly as we look at Vietnam it is, one, a 
large trading partner of the United States. It's growing larger 
by the day.
    Obviously, the Vietnamese Government has been very involved 
in ongoing negotiations over the Trans Pacific Partnership, 
TPP, and is also applying to be a recipient of the Generalized 
System of Preferences.
    The United States is already Vietnam's largest export 
market. Both the TPP and the GSP status would grow that 
relationship. But there are certain standards that we require 
of countries who want our business and we must ensure that 
Vietnam is living up to those standards.
    Vietnam is still a nonmarket economy with a large number of 
state-owned enterprises, as we've heard here before, and we 
also heard here in testimony before this subcommittee we've 
heard about Vietnam officials that have worked to keep 
international human trafficking rings operational, something 
that we cannot tolerate.
    Ethnic and religious minorities still face persecution on a 
regular basis. Vietnam claims actual ownership of all land and 
land confiscation is often used to play favorites.
    We cannot move forward with a GSP status as long as these 
issues are unsettled and Vietnam is unwilling to seriously 
address human rights issues and I look forward to hearing your 
testimony on how we can do that.
    And with that, I yield back, Mr. Chairman.
    Mr. Smith. Thank you very much and welcome to Mr. Stockman.
    I'd like to now introduce our distinguished panelists, 
beginning first with Congressman Anh Cao, who was born in 
Vietnam at the age of eight, was able to escape to the United 
States with his siblings.
    After learning English he did well in school and earned an 
undergraduate and Master's degree before teaching philosophy 
and ethics in New Orleans. Congressman Cao went on to earn his 
law degree and work for Boat People SOS to help poor Vietnamese 
and other minorities.
    He lost his home and office in Hurricane Katrina but helped 
lead his community as it started to rebuild. In 2008, he became 
the first Vietnamese-American elected to the U.S. Congress 
representing Louisiana's Second Congressional District, and I 
can say having worked so closely with him that he is and was 
then as a Member of Congress an outstanding champion of human 
rights. So welcome back, Congressman Cao.
    We'll then hear from Dr. Nguyen Dinh Thang, who came to the 
United States as a refugee from Vietnam in 1979. After earning 
his Ph.D. he began volunteering with Boat People SOS in 1988.
    Now serving as the head of Boat People SOS, Dr. Thang has 
worked for the past 25 years on virtually every human rights 
issue as it relates to Vietnam but especially on the resettling 
and helping to gain access to the U.S. tens of thousands of 
boat people and other refugees who escaped from Vietnam.
    And I can say parenthetically that when the Clinton 
administration wanted to send back and close the CPA, the 
Comprehensive Plan of Action, and say they're all going back 
there, they're economic migrants, they're not true refugees, it 
was Dr. Thang who came to this committee and to me and to my 
staff, Ambassador Joseph Rees and said we believe that tens of 
thousands of true refugees have been improperly screened out 
and are going back to new economic zones or to the gulag and 
will be mistreated. He said that they need to be re-reviewed 
and reassessed because they are refugees. As a result of his 
intervention we held four hearings in my committee.
    I offered an amendment that said no money of the U.S. will 
be used to forcibly repatriate any of those 40,000. The 
administration agreed and sent U.S. adjudicators and Embassy 
folks to refugee people to reevaluate and 20,000 plus people 
came to the United States, and it's all become of Dr. Thang. So 
thank you so very much for that. He's also the leader on 
fighting human trafficking.
    We'll then hear from the Venerable Danh Tol, who was born 
in 1981 in Vietnam and became a Buddhist monk in 1996. He 
continued his Buddhist education until '07 when he led a 
peaceful demonstration to demand religious freedom.
    For leading this demonstration he was jailed and he was 
tortured until he was released almost 2 years later following 
pressure from the international community.
    After his release he was granted refugee status and 
resettled abroad. Since 2010, he has met with many human rights 
organizations to speak about religious persecution and 
especially against the Khmer Krom indigenous people. Welcome to 
the Venerable Danh Tol.
    We'll then hear from Ms. Holly Ngo, who escaped from 
Vietnam by boat and arrived in the Philippines in 1978. In 
1980, she joined her mother and other family members in the 
United States, went on to earn a Master's degree in 1990.
    She has been an IT professional for 27 years and has done 
volunteer work in the local Vietnamese community in Southern 
California. Recently, she joined the fight against human 
trafficking of Vietnamese to various countries and we certainly 
welcome that important advocacy.
    Her family was a victim of multiple waves and forms of 
property confiscation by the Government of Vietnam.
    Then we'll hear from Mr. John Sifton, who is the Advocacy 
Director for Asia at Human Rights Watch where he focuses on 
South and Southeast Asia.
    He has extensive experience doing international human 
rights work with a focus on Asia, but he has also worked on 
issues related to human trafficking, terrorism as well as 
refugees.
    Mr. Sifton has travelled to Vietnam where he has 
investigated the human rights situation and other developments 
and written extensively about that.
    He works with a wide range of government officials from 
many countries to provide policy advice and raise awareness of 
Vietnam's human rights record. Mr. Sifton, welcome to you as 
well.
    I'd like to now go to Congressman Cao. He is recognized.

STATEMENT OF THE HONORABLE ANH ``JOSEPH'' CAO (FORMER MEMBER OF 
                           CONGRESS)

    Mr. Cao. Chairman Smith, Ranking Member Bass and esteemed 
members of the subcommittee, again I would like to thank you 
all for your interest and for you all being the voice of the 
Vietnamese-American community here in the United States.
    As you all know, the history of Vietnam and the history of 
Vietnamese-Americans is a history bathed in tears, a history of 
unbearable suffering but also a history with a proclamation Of 
hope.
    April 30, 1975, was the day of infamy for the millions of 
Vietnamese whose future was dashed when their freedom was 
extinguished by the brutal assault on South Vietnam by 
Communist forces in blatant violation of the 1973 Paris Peace 
Accord.
    Having known or faced Communist cruelty, thousands of 
Vietnamese left their homes and family, climbing and clambering 
over one another to fight for space on that last plane, on that 
last boat to escape imminent atrocities.
    What transpired in Vietnam after the Communist takeover 
could only be described by analogously linking the tragedy of 
Vietnam to such unconscionable events in human history as the 
Holocaust, the Killing Fields and the Great Purge.
    In the aftermath of the Vietnam War, the Communist 
government arrested and forcefully detained hundreds of 
thousands of former military personnel who were loyal to the 
Republic of South Vietnam and threw them into Nazi-style 
concentration camps along with thousands of political 
dissidents.
    Viewing religion as an existential threat to Communist 
orthodoxy, churches and temples were shut down and religious 
leaders were arrested and sent to prison like common criminals.
    Economic policy lacking scientific and philosophic 
justification were implemented with devastating effects as 
countless of thousands were evicted from their homes and sent 
to the new economic zones where many died of malaria and other 
deadly diseases.
    Facing starvation from ill-conceived economic policies, 
over 1 million Vietnamese left their home and country and set 
sail for the high seas, facing pirates, storms and death to 
seek freedom and a new future in foreign lands.
    It is estimated that over 300,000 of these boat people 
perished in the oceans of the world. However, many successfully 
escaped and resettled in the United States. Through the 
generosity of the U.S. Government and its people, hundreds of 
thousands of Vietnamese were able to adjust to a new culture 
and become productive citizens.
    I am one of the many thousands who benefited from this 
generosity. I can recall very vividly and endearingly an 
elderly couple in Goshen, Indiana, who I would come to call 
Mamoo and Papoo, driving me to school, taking me to shopping 
and buying me my very first snow sled.
    I along with thousands of Vietnamese became U.S. citizens 
for one simple reason--to defend the Constitution of the United 
States and in return be defended by the same Constitution.
    Vietnamese-Americans now invoke this Constitution and 
respectfully request this Congress to protect them against the 
illegal expropriation of the land left behind when they fled 
the evils of Communism.
    Mr. Chairman, to make the story short, on April 4, 1977, 
the Communist Republic of Vietnam, SRV, issued an executive 
order placing the properties of Vietnamese who fled Vietnam 
under temporary state administration.
    Then in 1980, the SRV declared through its constitution 
that land belongs to the entire people with the state as the 
representative owner, thereby declaring in principle its policy 
to nationalize all land.
    On December 29, 1987, the National Assembly proclamated 
Vietnam's land law to implement this new policy, placing all 
land under the people's collective ownership and the 
government's administration.
    On July 14, 1993, the Vietnamese National Assembly passed a 
new land law declaring that the government shall not return 
land expropriated to its rightful owners once that land has 
been assigned to other entities.
    This law, however, affected only Vietnamese nationals. Not 
until 2003 did the National Assembly pass a resolution that 
allowed the state to expropriate land of Vietnamese-Americans.
    The 2003 land law authorized the Vietnamese Government to 
spurn any claim for the return of land already placed under the 
state administration prior to July 1, 1991. This land law 
officially completed the process of nationalizing all land and 
housing under the administration of the state.
    Mr. Chairman and esteemed members of the subcommittee, 
Congress has been very clear in its intent that the United 
States shall not provide assistance to governments that have 
violated the rights of U.S. citizens.
    The Trade Act of 1974 requires that a beneficiary of the 
Generalized System of Preferences may not have nationalized, 
expropriated or otherwise seized properties of U.S. citizens or 
corporations without providing or taking steps to provide 
prompt, adequate and effective compensation or submitting such 
issues to a mutually agreed forum for arbitration.
    22 USC Section 2370 is explicit in this prohibition against 
the granting of assistance to countries that have nationalized, 
expropriated or seized property of U.S. citizens, especially 
countries with Communist ties.
    The statute mandates in pertinent parts that the President 
shall suspend assistance to the government of any country to 
which assistance is provided under this chapter or any other 
act when the government of such country or any government 
agency or subdivision within such country on or after January 
1, 1962, has nationalized or expropriated or seized ownership 
or control of property owned by any United States citizen.
    And in the statute itself it explicitly mentions the 
Socialist Republic of Vietnam as one of the countries that 
assistance shall not be provided.
    Mr. Chairman, Ranking Member Bass and esteemed members of 
the subcommittee, the Socialist Republic of Vietnam has failed 
to take appropriate steps to discharge its obligations under 
widely accepted general principle of international law to fully 
compensate Vietnamese-Americans for properties unlawfully 
nationalized or expropriated.
    The Socialist Republic of Vietnam has failed to foster the 
establishment of any genuinely democratic system and respect 
for internationally recognized human rights including the right 
to own property, the right to political speech and expressions, 
the right to freely practice any religion or belief and the 
right to life.
    Instead of improving its human rights record, Vietnam has 
increased its repression of democratic ideals since obtaining 
its entry into the World Trade Organization in 2007.
    Its repression and aggression have been the greatest 
against religious institutions. As part of this wave of 
repression, the Socialist Republic of Vietnam has aggressively 
expropriated land from religious communities including the 
Catholics, the Montagnard Protestants, the Hmong Protestants 
and the Khmer Krom Buddhists.
    The case of Con Dau Parish that the chairman is very 
familiar with illustrates the Vietnamese Government's policy of 
wiping out an entire Catholic parish through expropriation of 
farm land, cemetery plots and residential homes of 
parishioners.
    On May 4, 2010, the authorities even prohibited the burial 
of a 93-year-old parishioner in the parish cemetery. To make 
their act even more heinous, as parishioners proceeded with the 
funeral the police attacked them brutally, causing injuries to 
over 100 parishioners including the elderly and children.
    The police arrested 62 people and tortured them for days 
during detention, killing one of the detainees.
    Mr. Chairman and esteemed members of this subcommittee, the 
U.S. Government should not be complicit in the repression of 
democratic ideals in Vietnam. This government should not be 
complicit in the Vietnamese Government's infringement on the 
rights of U.S. citizens.
    We therefore request that this Congress to do the 
following. One, demand the administration to stop all 
assistance to Vietnam as required by law, not ratify any trade 
agreements with Vietnam until Vietnam shows concrete 
improvements in the promotion of democracy and religious 
freedom for its people and adequately compensate U.S. citizens 
for the land that they illegally expropriated, and three, pass 
the Vietnam Human Rights Act and the Vietnam Sanctions Act.
    Again, I would like to thank the chairman, Ranking Member 
Bass and this subcommittee for providing me the opportunity to 
testify.
    [The prepared statement of Mr. Cao follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Congressman Cao, thank you very much for your 
testimony.
    Dr. Thang.

STATEMENT OF NGUYEN DINH THANG, PH.D., EXECUTIVE DIRECTOR, BOAT 
                           PEOPLE SOS

    Mr. Thang. Chairman Smith, Ranking Member Bass, Congressman 
Meadows, Congressman Lowenthal and other distinguished members 
of this subcommittee, from cities across America today some 800 
of us, Vietnamese-Americans, gather in the halls of Congress to 
demand human rights for the 90 million Vietnamese people in 
Vietnam, our loved ones and also for the hundred of thousands 
of U.S. citizens that have been affected--that is, ourselves 
here in America.
    Confiscation of land has been used by the Government of 
Vietnam as a tool for corruption and also to repress the 
independent churches.
    However, it's a little known fact that over the past 38 
years the Vietnamese Government has also violated the rights 
and interests of U.S. citizens by illegally confiscating land, 
real estate and other properties of up to \1/2\ million U.S. 
citizens of Vietnamese origin.
    We estimate the total amount of compensations owed by the 
Vietnamese Government to be between 50-100 billion U.S. 
dollars.
    Many of the victims, ardent U.S. citizens, are here in the 
audience. In 1975 and ensuing years, the Communist Government 
of Vietnam occupied land and homes left vacant by those who 
left the country in the face of persecution.
    However, the government only nationalized these lands and 
homes in November 2003 under a resolution already mentioned by 
Congressman Cao.
    But by that time, some 600,000 Vietnamese refugees in the 
U.S. had already become naturalized U.S. citizens.
    So essentially that new law, that resolution, nationalized 
the properties of U.S. citizens. This confiscation of the 
properties of U.S. citizens continues to this day.
    For example, in the same case of Con Dau referred to by 
Congressman Cao in Da Nang City the government has used force 
to evict the parishioners in order to take over their lands and 
homes, some of which belonged to U.S. citizens through 
inheritance.
    Right at this moment as we speak, government workers 
escorted by the police are about to bulldoze their ancestral 
home that belong to Vietnamese-Americans present in this 
audience. I have here a picture of the bulldozer escorted by 
the police right now in Vietnam.
    With the chairman's permission, I also would like to 
include for the hearing's record the report by the Association 
of Con Dau Parishioners that has been submitted to the U.N. 
Human Rights Council for the UPR review of Vietnam.
    Mr. Smith. Without objection, so ordered.
    Mr. Thang. Thank you, Mr. Chairman.
    U.S. laws are very clear toward a government--from 
governments that confiscates the properties of U.S. citizens. 
The Federal Claims Settlement Commission has the responsibility 
to adjudicate claims of U.S. citizens against foreign 
governments.
    The Foreign Assistance Act stipulates that the President 
shall suspend all assistance to a country the government of 
which has appropriated the properties of U.S. citizens and the 
U.S. Government shall vote against loans to that government 
from international financial institutions such as the World 
Bank and the Asian Development Bank.
    The Trade Act already mentioned by Congressman Cao bars the 
U.S. President of according GSP to a foreign government that 
has nationalized, expropriated or otherwise seized properties 
of U.S. citizens or corporations.
    I have personally helped numerous Vietnamese-Americans, 
including my own parents, to write to the State Department's 
Legal Adviser's office.
    In response, this office has provided a list of law offices 
in Vietnam and told claimants to contact--verbatim to contact 
and hire an attorney in Vietnam to help pursue any rights and 
remedies that you may have with regard to your property under 
domestic law in the local jurisdiction. We expected a lot more 
from own government.
    I have also helped these same Vietnamese-Americans to write 
to the U.S. Trade Representative asking him to include 
compensations for confiscated properties of U.S. citizens as 
part of the ongoing trade negotiations with Vietnam including 
the TPP.
    According to the USTR's response, again verbatim, the 
United States has a broad and multifaceted relationship with 
Vietnam. Vietnam's participation with us on a range of trade 
initiatives creates significant new possibilities for U.S. 
exporters.
    No mention about the properties of thousands--tens of 
thousands and potentially hundreds of thousands of U.S. 
citizens that have been confiscated illegally by the Vietnamese 
Government.
    And last August, our organization, BPSOS, launched an 
online petition using the White House's We The People Web site, 
calling on our own President to defend the rights and 
properties of U.S. citizens of Vietnamese origin.
    No response so far after 10 months. It is understandable 
why our administration has not taken an interest in defending 
the rights and properties of U.S. citizens of Vietnamese 
origin. Doing so might derail its policy of strategic 
engagements with the Socialist Republic of Vietnam.
    I therefore would like to call on Congress through this 
committee, subcommittee, to one--number one, request that the 
USTR includes immediately in the TPP negotiations with Vietnam 
our Government's demand that the Vietnamese Government must, 
first, agree to pay compensations for all affected U.S. 
citizens including those of Vietnamese origin; to request of 
the Legal Adviser's office at the State Department to espouse 
the claims of U.S. citizens against the Vietnamese Government; 
to negotiate with that government's terms of settlements and 
demand the suspension of all land expropriations from now on, 
at least temporarily, throughout the country until a process is 
in place to ensure that no properties of U.S. citizens will be 
further expropriated without due and fair compensations.
    We call on the President to immediately suspend all 
assistance to Vietnam pending the results of such negotiations. 
We also call on Congress to authorize the U.S. Federal Claims 
Settlements Commission to start adjudicating claims by 
Vietnamese-Americans against the Socialist Republic of Vietnam, 
and finally, to commission the GAO, the General Accountability 
Office to study the different forms of confiscation of 
properties employed by the Vietnamese Government over the past 
38 years and also to assess the respective impact on U.S. 
citizens.
    Thank you.
    [The prepared statement of Mr. Thang follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Dr. Thang, thank you so very much.
    Ms. Ngo.

  STATEMENT OF MS. HOLLY NGO, VICTIM OF PROPERTY CONFISCATION

    Ms. Ngo. Mr. Chairman Smith and members of the committee, 
thank you for allowing me to speak on behalf of my family and 
many other Vietnamese-American families that are similarly 
situated.
    My name is Holly Ngo. I escaped from Vietnam by boat in 
December 1978 and arrived at a refugee camp in the Philippines. 
I was resettled as a refugee to France in 1979 and stayed in 
Paris until September 1980.
    I then joined my family in the U.S. in October 1980 and 
became a U.S. citizen in 1985. I live in Garden Grove, 
California, and I'm currently working for Avery Dennison in 
Brea, California, as a senior Peoplesoft technical developer.
    My mother, Kim Hoang, fled Vietnam by boat in May 1979 and 
stayed in a refugee camp in Malaysia. She arrived in the U.S. 
in 1980. She acquired U.S. citizenship in September 1996.
    My father stayed behind in Vietnam until 1991 and he joined 
our family in the U.S. in 1991 and became a U.S. citizen in 
January 2000.
    On behalf of our family, I am seeking congressional 
intervention in the matter that affects our family and many 
Vietnamese-Americans.
    In 1979, one of our houses was placed under state 
management because we did not live in the house. In 2003, the 
Government of the Socialist Republic of Vietnam nationalized 
our land and our house and this is the English translation of 
the title of our real property in Vietnam.
    This is the bill of sale in 1970 and this is worth at least 
800,000 U.S. dollars now in Vietnam.
    In 1977, the Vietnamese Government forced my family to 
deposit 2.384 kilograms of gold at the National Bank. They have 
not returned that gold, which is worth at least $135,882 at the 
present market value, and this is the receipt of our deposit 
dated February 1, 1977. This is the original.
    In other words, the Vietnamese Government is unlawfully 
withholding access of U.S. citizen with no intention to return 
it. And my parents also has a second house in Vietnam.
    When my father sold it in 1990 to migrate to the U.S. the 
government kept 50 percent of the sale proceeds because my 
mother was in the U.S. at that time.
    They said they kept it for my mother but they never 
returned the money to her and at that time it was approximately 
5,000 U.S. dollars in 1990 and this is the receipt. As I said, 
they kept 50 percent for my mother.
    On September 10, 2012, I sent a letter to Senator Barbara 
Boxer, Senator Dianne Feinstein, Congresswoman Loretta Sanchez, 
Ambassador Ron Kirk of the Office of the United States Trade 
Representative, and Mr. Hongju Koh, the Legal Adviser of the 
Department of State, to ask them to raise this issue to the 
Vietnamese Government at every possible occasion encouraging 
the Vietnamese Government to send delegation to meet with our 
family and our legal counsel to discuss the return or the fair 
compensation of our property.
    I believe that my mother's claim met all the three standard 
criteria that the Department of State used to assess the merit 
of similar claims. I have spent the past decade to seek local 
remedy.
    The Vietnamese Government will not entertain any claim for 
the return of land or residential housing already placed under 
statement management such as the case of our family.
    U.S. law is very clear that when a foreign nation 
expropriates property of a U.S. citizen the Foreign Assistance 
Act of 1961 stipulates that the President shall suspend all 
assistance to a country the government of which has 
expropriated the property of a U.S. citizen and the U.S. 
Government will vote against loan to that government from 
international financial institutions.
    Congress is in the position to demand that our State 
Department apply U.S. law passed by Congress. Please forward 
our case and the case of so many other Vietnamese-Americans to 
the Legal Adviser for the Department of State and the U.S. 
Trade Representative and ask them, number one, what are their 
procedure and criteria they would use to assess the merit of 
our claim against the Vietnamese Government; number two, what 
is the threshold to apply the Trade Act of 1974 regarding not 
granting the Generalized System of Preference to the government 
that has expropriated property of a U.S. citizen; number three, 
what is the threshold to apply the Foreign Assistance Act of 
1961 regarding the suspension of foreign assistance to a 
government that has expropriated property of a U.S. citizen.
    I know that the Clinton administration intervened on behalf 
of an American and successfully secured of U.S. dollars like 
$200 million in compensation for an American whose property has 
been expropriated by the Socialist Republic of Vietnam.
    We expect the Obama administration to show the same 
treatment toward Americans of Vietnamese origin and we expect 
equal protection of rights and property of all Americans. 
However, this is not the case.
    I therefore am very grateful for this opportunity to appeal 
to our Congress to do what is right to protect the rights and 
the property of the U.S. citizen.
    Thank you very much.
    [The prepared statement of Ms. Ngo follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Ms. Ngo, thank you very much for your testimony 
and for asking such pertinent questions of the U.S. Department 
of State and of the administration.
    I think such a violation of your rights and the rights of 
your mother, as you pointed out, cannot go unanswered. So thank 
you so very much.
    I'd like to now yield to the Venerable Thich Danh Tol.

   STATEMENT OF THE VENERABLE DANH TOL, VICTIM OF RELIGIOUS 
                          PERSECUTION

    [The following testimony was delivered through an 
interpreter.]
    Ven. Tol. Mr. Chairman, I would like to take this 
opportunity to thank the committee, the chairman, for inviting 
me to come here and testify before your subcommittee.
    Before I present my statement and recommendation, I wish to 
offer my prayers and my thoughts to the victims of the Oklahoma 
tornados. I wish them speedy recoveries.
    I wish to summarize my statement and I wish to include my 
written statement for the record.
    Mr. Smith. Without objection, yours and all of the 
witnesses' full statements and any attachments will be included 
in the record.
    Ven. Tol. My name is Venerable Danh Tol. I'm a Khmer Krom 
Buddhist monk in Vietnam. I was ordained into the monkhood in 
1996.
    I led a peaceful and nonviolent demonstration on February 
8, 2007, in Soc Trang with over 200 monks--Khmer Krom monks in 
order to demand the freedoms of religion to practice Theravada 
Buddhism.
    I was arrested, defrocked by force and imprisoned on 
February 26, 2007, for 4 years. Others arrested and imprisoned 
were the Venerable Kim Moul, Venerable Thach Thuong, Venerable 
Ly Hoang and Venerable Ly Suong.
    Mr. Chairman and members of the subcommittee, I would like 
to inform you that I was tortured and beaten incessantly by the 
police forces and I was in general tortured and interrogated at 
night time. I was tortured and I was interrogated and forced to 
admit the wrongdoings of which I did not commit.
    The Vietnamese Government have the police forces to arrest 
the Buddhist--the Khmer Krom Buddhist monks as well to torture 
them in order to force them to admit the wrongdoings which they 
did not do and during the tortures, beatings and sufferings 
have incurred.
    For approximately up to 6 months, I was held in isolation, 
in darkness and naked. During the imprisonment I was held and I 
was beaten incessantly and I suffered mentally, emotionally, 
physically, and was forced to admit what I did that I didn't 
do.
    After the interrogation and tortures I was bleeding and was 
left unconscious. After waking up I was tortured again and 
again and I did nothing wrong. The thing what we did--I didn't 
do anything wrong and they kept forcing me to admit wrong 
things.
    I was imprisoned for 4 years. I was in prison for 4 years. 
I was released on January 17, 2009. Under the pressure from the 
foreign interventions I was released on January 17, 2009.
    On April the 20th, I fled the country and into Thailand. I 
was released--I was never convicted. I left Thailand in 2009. 
Mr. Chairman and members of the subcommittee, I would like to 
inform you that even right now the Vietnamese authority is 
still accusing other Khmer Krom Buddhist monks for peaceful 
religious activities, in violation of their human rights.
    Even right now the Government of Vietnam has arrested three 
Khmer Krom Buddhist monks and they are Venerable Lieu Ny, 
Venerable Thuol, and Venerable Chanh Da.
    Even the followers of the Theravada Buddhism were arrested 
for supporting the Khmer Krom monks. Three women and three 
follower men have been arrested but I just can't remember all 
of the names of the prisoners being held by the Vietnamese 
Government right now.
    My apology, Mr. Chairman. I am really emotional and at this 
time I would like the committee--would like your support to 
allow the Khmer Krom Buddhist monks--I would like the committee 
to urge the Vietnamese Government to unconditionally release 
Venerable Lieu Ny, Venerable Thach Thuol, Venerable Phum Rich, 
and Thach Tha.
    I believe that while they were in prison they would be 
tortured incessantly just what they did to myself. I believe 
that the other two venerables are being imprisoned right now, 
Venerable Lieu Ny at the Tra Set Temple and the Venerable Thach 
Thuol also at the Tra Set Temple and also Venerable Ly Chanh Da 
at the Prey Chop Temple.
    Also in this regard, I would like to recommend the 
committee to urge Vietnam to allow Khmer Krom Buddhist monks to 
create an independent religious organization free from 
interference from the Government of Vietnam.
    We would like to have the violations of human rights 
against Khmer Krom Buddhist monks stopped and I would urge the 
committee to advise the U.S. State Department to redesignate 
Vietnam as a Country of Particular Concern for the violations 
of the Khmer Krom Buddhist monks.
    And I would urge Vietnam to respect the human rights of the 
Khmer Krom people as well as the Khmer Krom Buddhist monks in 
the Mekong Delta, to avoid violation and stop violations of the 
human rights of the Khmer Krom people and Khmer Krom Buddhist 
monks.
    Again, I would like to thank the chairman and members of 
the subcommittee for the opportunity for me to be here.
    [The prepared statement of Ven. Tol follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Venerable Danh Tol, thank you very much for your 
testimony and for sharing with us the horrific experience that 
you encountered as your religious freedom was violated.
    Mr. John Sifton.

  STATEMENT OF MR. JOHN SIFTON, ASIA ADVOCACY DIRECTOR, HUMAN 
                          RIGHTS WATCH

    Mr. Sifton. Thank you, and thank you for inviting me to 
testify as well in today's hearing. Today's date is June 4th. 
It's, of course, a day of infamy among human rights groups and 
it's fitting and proper that we remember why for a moment.
    It was on this day in 1989 that the Chinese Army in a 
vanguard of tanks and bullets pushed across the streets of 
Beijing to end the massive protest at Tiananmen Square and 
countless people were killed on that day 24 years ago calling 
for democracy and freedom.
    That quest, the quest for human rights, is, of course, not 
limited to China and it didn't die at Tiananmen. In Vietnam 
today, people from really across the spectrum of society are 
regularly engaging in protests and other forms of free speech.
    All kinds of people--students and workers and teachers and 
farmers and bloggers and religious leaders and even former 
police and soldiers, Vietnam's citizens criticizing their 
government, reporting on corruption and poor governments or 
even mocking the Communist Party's stridency.
    There was a protest just 2 days ago in Hanoi criticizing 
the government for its China policy and, of course, it bears 
remarking here that many of these protests are resulting in 
arrests and convictions. They're involving dissidents 
protesting land seizures. A lot of these protests are about 
that.
    The record is getting worse. We now know that in 2012 40 
people are known to have been convicted and sentenced to prison 
for peaceful dissent cases.
    This was an increase from 2011 which itself was an increase 
from 2010 and already this year, in the first 5 months of this 
year, more than 50 people have been convicted now in political 
trials which more than matches last year's record.
    So to repeat that, in the first few months of this year 
more people have been convicted in political trials than in the 
whole of last year in Vietnam.
    Since I last testified in April there have been almost no 
improvements, just more prison sentences. On May 16th, two 
activists, Nguyen Phuong Uyen and Dinh Nguyen Kha, were 
sentenced to 6 years and 8 years in prison respectfully.
    These women were sentenced--this one woman and one man were 
sentenced for handing out pamphlets. A 21-year-old woman is 
going to jail for 6 years for handing out pamphlets.
    On May 26th, just a week ago, police arrested blogger 
Truong Duy Nhat and charged him with abusing democracy and 
infringing on the interests of the state, a violation of 
Article 258.
    And on May 28th, just a few days ago, there was a trial of 
eight ethnic Montagnards arrested in June of last year. They 
were convicted of violating Article 87, undermining national 
unity.
    Most of them received sentences of 7 to 11 years in prison, 
and on May 5th, earlier in the month, the case of these human 
rights picnics occurred. In four separate cities police broke 
up peaceful human rights picnics at which young bloggers and 
activists were disseminating and discussing the Universal 
Declaration of Human Rights.
    Peaceful protests where people were sitting in parks 
reading aloud the Universal Declaration of Human Rights were 
broken up violently and some of the people had their laptops 
confiscated and when they went to police stations to attempt to 
get them back one of them was punched in the face, his mother 
was burned with a cigarette on her forehead and her sister had 
her teeth knocked out.
    This was on May 5th. The anti-China protests I mentioned 
just this past Sunday ended with arrests and more beatings by 
police as well. So in summary, the trend lines are showing a 
worsening situation.
    It's not just another bad year in Vietnam. I also want to 
give the subcommittee a update with respect to media freedom, 
an important issue that's come up lately. As Human Rights Watch 
and other groups have reported previously, the government 
continues to engage in blocking and filtering of Internet Web 
sites but recently the authorities also tightened rules on 
television.
    Authorities promulgated a new restriction known as Decision 
20, requiring that outside broadcast companies licensed to 
carry cable or broadcast in Vietnam, for instance CNN and BBC, 
they have to pay for translational editing of their content.
    This is censorship, the editing part at least, and this 
will be performed by a Vietnamese agency licensed by the 
government.
    The regulation also notes that content can only be 
broadcast which is appropriate to the people's healthy needs 
and does not violate Vietnamese press law.
    There are, of course, many other human rights issues to 
discuss with Vietnam, religious persecution chief among them, 
land evictions, which we've already heard about, a ban on all 
unauthorized unions and other labor organizations and 
administrative detention and forced labor for alleged drug 
users--40,000 people in administrative detention without due 
process for alleged drug use.
    Some of them are drug users. Others are not. But either 
way, forced labor in forced labor camps. Show trials with 
courts that lack independence continue and in addition to all 
this the basic brutality. Police regularly engage in 
mistreatment, sometimes torture. They beat detainees and even 
produce fatalities.
    So this is Vietnam today. The nation's governance is 
characterized by brutality and systematic suppression of 
freedom of expression, association, peaceful assembly with 
frequent persecution of those who question the government's 
actions or call for democratic alternatives.
    So what can the United States do about it? It's time for 
the United States Government to see things for what they are.
    There was a hope a few years ago among administration 
officials that attempting a military strategic dialogue with 
Vietnam and opening trade negotiations in the context of a 
bilateral investment treaty or in the Trans Pacific Partnership 
might serve as an incentive to the government to make changes 
and perhaps soften its authoritarian edge.
    It now appears that that hope was misplaced. Vietnamese 
authorities have not unclenched their fists. So Human Rights 
Watch would urge this subcommittee and the other subcommittee 
in tomorrow's hearing to keep asking the Obama administration 
very, very tough questions about its continuing dialogue with 
Vietnam.
    And I think it might be useful to talk realistically about 
what exactly the United States can do to change the Vietnamese 
Government's behavior and weigh what kinds of things would 
impact them more than others.
    Cutting all assistance to Vietnam in the generality might 
sound good but in practice it means cutting assistance to Agent 
Orange remediation, to PEPFAR for vital HIV/AIDS interventions, 
to global health programs for drug-resistant tuberculosis.
    These are things which perhaps the Vietnamese Government 
would care less if the United States cut them and yet doing so 
would have real impacts for ordinary Vietnamese citizens.
    So it might not be appropriate to just cut all U.S. 
assistance. Instead, the right questions would be asking the 
administration what really hurts the Vietnamese Government.
    Is it suspending negotiations with Vietnam in the context 
of bilateral trade investment treaties, the TPP? If the 
Pentagon pulls back on its engagement? If the Pentagon puts up 
a complete brick wall to any discussion of lethal arms 
transfers ever and makes it very clear that none of that will 
happen unless very stringent standards are met?
    We at Human Rights Watch think the time has come to start 
asking those kinds of tough realistic questions about what 
exactly the U.S. hopes to do to get Vietnam to change its 
behavior.
    It's not just another year in Vietnam's long sad history. 
It's been one of the worst years in quite a long time and I 
think it's time for U.S. foreign policy to change.
    Thank you for your time.
    [The prepared statement of Mr. Sifton follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Thank you so very much, Mr. Sifton.
    It is an honor to recognize the chairman of the full 
committee, Congressman Ed Royce.
    Mr. Royce. And I appreciate that and let me share with you 
all why I think it's so important, Chris, that you've held this 
hearing today.
    The subcommittee chairman has held this hearing because 
tomorrow at 2 o'clock o'clock we're going to have the State 
Department here with us as I'm sure he's mentioned and what I 
really want to glean from this hearing today is--goes to the 
issue of is it the problem of the State Department not pushing 
hard enough in these meetings?
    Is it a question of not having an agenda for the meetings 
that they'll have coming up with the government in Hanoi? What 
specifically should we be saying?
    I know one thing is for sure and that is the report that I 
have read is the antithesis of the report from Human Rights 
Watch.
    Human Rights Watch documents the same types of abuses that 
I hear from my constituents and that I see in the press. On the 
other hand, the State Department reports that the government 
continued to ease restrictions placed upon most religious 
groups.
    In other words, what I am reading in the State Department 
report from last year I no longer believe and I thought I'd 
start, Mr. Sifton, by asking you because you've read the 
report.
    The government generally respected the religious freedom of 
most registered religious groups, says State, and then I go 
through Human Rights Watch and these other reports as well as 
the reporting from the international news media and I get the 
facts.
    And how do we--how do we try to determine what the purpose 
is of the State Department in understating the human rights 
abuses? What's your read on that?
    Mr. Sifton. Well, obviously, I would defer--I would ask 
that that question be placed firmly into the State Department's 
court tomorrow--is there any reason we can trust that this is 
an accurate report, given the discrepancies that you've 
mentioned.
    The key word in the passage you just mentioned was 
registered. It's easy enough to say that Vietnam respects the 
rights of registered religious groups.
    Mr. Royce. Well, this was the point that the Venerable 
Thich Quang Do made to me when I visited him. He was under 
house arrest and he said the reason we're not going to 
register, the reason--we don't want to change our text.
    We don't want to change our holy books to what the party 
wants us to do because this is our religion. It's not the 
Communist Party manifesto, essentially.
    He didn't use those words but he said this is our religion 
so we want to--we don't want to make these changes, and I 
gather from what I've heard from the Hoa Hao and the Cao Dai 
Buddhist Church and what I've heard from others is that when 
you come under the control of the government it means that you 
also have to suppress part of the teachings in order to--and so 
if we're overlooking everybody who's independent it means we're 
overlooking everybody who's trying to exercise their 
religious--their religion independent of state control.
    Maybe I could ask some of the other participants about that 
and, John, do you have any other observations on that?
    Mr. Sifton. All I would say is I think the report does 
contain some information about some of the abuses that are 
happening and the main State Department report obviously is 
pretty unvarnished.
    I should also note that the U.S. Commission for 
International Religious Freedom has an excellent report.
    Mr. Royce. Yeah, they have an excellent report. Yeah.
    Mr. Sifton. At the end result, though, the question is what 
is the State Department going to do about it. I think that they 
are pushing hard and they do have an agenda.
    The question is when do you give up and when do you say 
Vietnam, you're not negotiating with us in good faith. We don't 
get a sense that you're going to change your behavior and when 
do you then change your context and say I'm going to stop 
negotiating with you. We're not going to keep expanding these 
Pentagon mil-to-mil relationships----
    Mr. Royce. Yes.
    Mr. Sifton [continuing]. Until you get better.
    Mr. Royce. Let's hear from some of the other panelists.
    Mr. Thang. Yes, I would like to follow up on your question, 
Mr. Chairman.
    One question that should be asked tomorrow of the State 
Department officials is that how many registered churches there 
are in Vietnam compared to how many churches that have tried to 
register but have not been allowed to, such as the Khmer Krom 
Buddhist Church has not been allowed to and we have a list--
about 651 Hmong Protestant Churches that have tried for many, 
many years to register but they have not been allowed to.
    The same question would be like this. Now since the State 
Department doesn't have access directly to those members of the 
unregistered churches, have they tried to talk to people like 
the Venerable Danh Tol right here?
    We brought him to the State Department last year suggesting 
that they should interview him and others like him to obtain 
accurate information for the next report on international 
religious freedom.
    They didn't do that. The copy that they just released 
didn't contain any interviews with the witnesses that are 
available here right here in the U.S. So why--how many have 
they interviewed, have they talked to? Those would be the two 
questions I'd like to suggest.
    Mr. Royce. Other observations? The Venerable Danh?
    Ven. Tol. First, I would like to--first of all, I would 
like to stress that the violations of the Khmer Krom Buddhist 
monks in particular are ongoing.
    And the reason why the Khmer Krom Buddhist monks doesn't 
want to register their faith with the Government of Vietnam it 
will slow down--it will force all the Theravada Buddhism faith 
to have to ask for the permission from the government for any 
ritual.
    And the arrest of the Khmer Krom Buddhist monks by the 
Vietnamese Government is to eliminate their belief of the 
Theravada Buddhism of the Khmer Krom Buddhist monks.
    The reason why the Khmer Krom Buddhist monks exist at this 
moment just because of the existence of the Khmer Krom temples 
in the Mekong Delta. The customs, the cultures and the 
practices of the Khmer Krom people are emanated from the Khmer 
Krom temples.
    This is the reason why they're forcing the registrations of 
every Buddhist, of every religious sect is in order to 
eliminate the religious faiths of the followers.
    The Khmer Krom Buddhist monks have not been able to access 
any public media either through Internet or through the public 
media or to newspapers and the reason why the Government of 
Vietnam does not want them to know about it is in order to 
force them not to recognize the Buddhist.
    And we'd also like to thank our Vietnamese brothers and 
sisters for being here with us and to support the reporting on 
the violations of the human rights of the Government of 
Vietnam. And Khmer Krom is also a human being--one of the 
human--of the family of human beings.
    Thank you very much, Mr. Chairman.
    Mr. Royce. Yeah, let me close with this. One of the--one of 
the cases that really captured my attention was the Reverend 
Nguyen Hong Quang who was interrogated over 200 times, beaten 
several dozen times and we talked about the disparate 
sentencing. His latest sentencing was 15 years.
    So, clearly, for those who are not knuckling under to the 
regime the consequences can be brutal. I've seen photographs 
after the beating and--beatings, I should say. I mean, it's 
relentless.
    So given this reality, I think it's important--and I know 
the State Department is following this hearing today--I think 
it's important that when they come here tomorrow they have a 
concrete idea of how to explain the agenda, a concrete agenda, 
in what they're going to say and do in these negotiations and 
what we're going to offer up by way of leverage in order to get 
to some modicum of humanity in terms of the way people are 
treated with respect to religious liberty and other freedoms in 
Vietnam.
    And Mr. Chairman, I yield back. Thank you.
    Mr. Smith. Thank you very much, Chairman Royce.
    And let me just ask a couple of questions and I'll yield to 
my colleagues. And, you know, Mr. Sifton, you mentioned, that 
if we enforce some of the current laws including the Foreign 
Assistance Act of 1961 as amended in 1964, then that might be 
counterproductive.
    And I know you know this--the Vietnam Human Rights Act 
makes it very clear that humanitarian and health initiatives 
including the Agent Orange, HIV/AIDS, and the combatting human 
trafficking moneys that we provide to Vietnam would be 
exempted.
    The idea is to really hold this country and this government 
to account in a very calibrated and focused way. So, I think 
your point was very well taken.
    Dr. Thang, you do point out that the U.S. laws are very 
clear toward any foreign government that confiscates the 
properties of U.S. citizens and you cite the 1949 International 
Claims Settlement Act, the Foreign Assistance Act and the Trade 
Act, which precludes conferring GSP if a country has 
nationalized, appropriated, or otherwise seized property of 
U.S. citizens or corporations without providing or taking steps 
to provide prompt, adequate and effective compensation or 
submitting such issues to a mutually agreed forum for 
arbitration.
    It is beguiling and disappointing that the administration 
has not used existing law to really aggressively push the 
interests of American citizens as you all have so eloquently 
stated in your testimonies. If you want to elaborate on that, I 
would welcome you to do it.
    And Dr. Thang, you point out that repeated appeals by 
Vietnamese-Americans for equal treatment have been ignored by 
the present administration.
    The U.S. Department of State Legal Adviser's office, which 
is tasked with the responsibility of representing U.S. citizens 
in disputes has set three conditions. You go through those 
three conditions, which have been met by Ms. Ngo, as she 
pointed out.
    But then you make a very, very important point, that the 
Legal Adviser at the State Department said contact and hire an 
attorney in Vietnam to help you pursue any rights and remedies, 
and as you point out, there is no local remedy. It does not 
exist.
    I would point out for the record that when I met with 
Nguyen Dai, a lawyer in Hanoi who subsequently was arrested, 
harassed, he was trying to raise simple human rights issues and 
for that the fist of the dictatorship came down upon him 
extraordinarily hard.
    This needs to be a government-to-government endeavor, not 
``Here, go find yourself a lawyer somewhere in Vietnam and good 
luck,'' because as you say, there is no remedy.
    If you could expand on that. Not only does it put the 
lawyer and the individual at risk, it is a fruitless endeavor 
and I'm amazed that the Legal Adviser would make such a 
suggestion.
    Mr. Thang. Actually, Attorney Nguyen Van Dai, whom you have 
met, tried to help on a number of cases and again and again the 
government said no, and not only that, as Congressman Cao----
    Mr. Smith. Cases of----
    Mr. Thang. Yes, of confiscated properties of U.S. citizens. 
And Congressman Cao pointed out that there was a resolution 
passed by the National Assembly of Vietnam on November 26, 
2003, declaring without any ambiguity that the Vietnamese 
Government will not return the properties that they have 
confiscated from anyone who had left Vietnam including hundreds 
of thousands potentially of Vietnamese-Americans, period.
    So there's no point in spending and wasting more time and 
money hiring lawyers in Vietnam to fight the system that has 
declared that they are not going to return the properties.
    And therefore that's why we really need the intervention of 
this government, and the laws are very clear. They have been 
implemented multiple times including against Vietnam for claims 
against Vietnam.
    How come that when it comes to Vietnamese-Americans the 
same laws don't apply? And we wonder very much about that.
    Mr. Smith. You mentioned that Boat People SOS launched an 
online petition to President Obama on the We the People Web 
site and you stated our President should demonstrate his 
commitment to defending the rights and interests of U.S. 
citizens by applying prohibition clauses of the Foreign 
Assistance Act to Vietnam, calling on its government to freeze 
further expropriations of U.S. properties and conditioning GSP 
or any further trade benefits on the return of all properties 
that belong to U.S. citizens or payment of fair compensation.
    You say that you collected well in excess of 25,000 
signatures within 3 weeks' time and to this date there is no 
response?
    Mr. Thang. There has been no response 10 months later.
    Mr. Smith. Let me ask the Venerable Danh Tol--one of the 
issues that I've raised repeatedly with interlocutors in 
Vietnam and with the State Department is about the registry. I 
thought your question was great for tomorrow, Dr. Thang, but as 
we all know, the Vietnamese Government sets up parallel faith 
bodies.
    That's why the Venerable Thich Quang Do can't operate 
anymore because they just outlawed the Unified Buddhist Church 
of Vietnam and then they turn around and set up a shell of an 
organization that they control.
    What has been your response if any and anyone's response 
from the State Department in doing this? You know, it seems to 
me that when we talk about registering and not registering 
well, the real issue is that they're setting up bogus 
organizations to be the faith community for that particular 
denomination or belief system.
    Ven. Tol. I believe that--I believe that if they register 
and the inclusions of the Theravada Buddhism together with the 
United Buddhist Church Association in Vietnam I believe that 
the Government of Vietnam will continue to oppress and then 
oppress the Khmer Krom Buddhist monks, never stop--never stop 
oppressing them.
    Another reason is that the Government of Vietnam right now 
just don't want to help the Theravada Buddhism faith in 
existing in the Mekong Delta.
    And another reason I would like to leave here with the 
committee that there is also demonstrations in Vietnam from 
various sects of the Buddhist monks but why there were not any 
forced defrocks of the Buddhist monks with the exception of the 
Khmer Krom Buddhist monks have been forced to defrock and to 
tortures and to be imprisoned.
    This is to show that the Government of Vietnam just does 
not want to see the Khmer Krom Theravada Buddhism's continued 
existence in the Mekong Delta.
    That's why I would like to urge the committee to help 
Vietnam respect and then having the Khmer Krom Buddhist monks 
forming its own independent organizations independently from 
the government Buddhist organizations right now and to respect 
the religious belief of the Khmer Krom Buddhist monks.
    Thank you, Mr. Chairman.
    Mr. Smith. Let me just ask one final question and then I'll 
yield to Mr. Meadows.
    Dr. Thang, in your testimony you talked about how on the 
heels of the U.S. human rights dialogue that the violation of 
human rights actually intensified.
    It's deplorable, as you put it, but not surprising and you 
point out--and this is a very important paragraph--in April the 
U.S. delegation led by the Department of State was in Hanoi for 
a 1-day dialogue on human rights.
    It was attended by Vietnamese rank and file government 
officials. Ten days later, a large U.S. delegation led by the 
acting U.S. Trade Representative spent 3 days to negotiate the 
Trans Pacific Partnership. They met with the Vietnamese 
President, the Deputy Prime Minister, several ministers and 
deputy ministers.
    The message to the Government of Vietnam was very clear. 
The U.S. cares more about trade and, I would add, profits, than 
human rights. It's all about prioritization. Would any of you 
like to respond to that?
    They are your words, Dr. Thang, but it just sums it all up. 
They take the measure, they look us in the eyes and we say 
we've got to do an obligatory human rights dialogue, have a 
nice day, go and abuse all you'd like, and we don't really 
care.
    And as you pointed out, up to a \1/2\ million U.S. citizens 
of Vietnamese origin have had their properties confiscated.
    That's very serious, plus, of course, the torture and the 
ongoing repression. It's all about priorities and I am sickened 
at heart by the lack of prioritization of human rights toward 
Vietnam.
    And as Mr. Sifton pointed out, it is other countries as 
well. We had a hearing yesterday about Tiananmen Square twenty-
four years later and Sophie Richardson from your organization 
testified about it and Wei Jingsheng and some of the great 
leaders of the Tiananmen Square movement which continues to 
this day as well as the repression.
    Again, no prioritization of human rights. It's a bullet 
somewhere on a page, and that is so unfortunate, unnecessary 
and I would say deplorable. If any of you would like to 
respond--Mr. Sifton and then Dr. Thang.
    Mr. Sifton. I would like to say that that's exactly the 
right question to be asking the State Department. All I would 
say in their defense is that they're not monolithic. The folks 
that went for that 1-day dialogue did raise human rights and 
they raised the issues and they pushed the issues and even 
Ambassador Shear pushes the issues.
    The question is priorities. There are other parts of the 
State Department which are prioritizing trade preferences and 
improving all of that.
    So there's a fight even within the State Department in 
which I think this committees and--the full committee and the 
other subcommittee can play a huge role in strengthening those 
parts of the State Department that actually want to do the 
right thing.
    But it might be useful to just focus for a second on what 
exactly is going on here with the religious persecution. You 
know, it looks like the government distrusts unregistered 
groups because they're worried that they're politically active 
and a risk to the party and they're worried about them in the 
same way they're worried about unions because whenever people 
without the approval of the government get together and start 
organizing it's a threat to the party, and that's what they're 
worried about.
    To get them to not do that is going to require a heavy 
amount of pressure from outside authority because they really 
do fear--perhaps very paranoid but they do fear that 
unregistered religious groups are somehow a threat to their 
rule.
    Mr. Thang. Yes. Mr. Chairman, last year before the 
publication of the annual report of the State Department's on 
international religious freedom the director of the Office of 
International Religious Freedom of the State Department went to 
Vietnam, met with the leadership of a Buddhist Church.
    And when we found--we asked--I talked to her and it turned 
out that she talked with the leadership of the Vietnamese 
Buddhist Sangha which was set up by the Government of Vietnam. 
She did not have any chance to talk to Venerable Thich Quang 
Do, for instance.
    She came back and a few weeks later the report was 
published and, clearly, the content was disappointing. And 
that's why we brought a number of Khmer Krom Buddhist monks who 
have suffered, are witnesses and victims and we suggested that 
her office interview them to improve on the quality and the 
accuracy of this year's report. Nothing happened, and they are 
here available.
    And I would like to say that your remark, Mr. Chairman, 
that the Vietnamese Government has been very deft at setting up 
bogus religious organizations to present to the world and that 
applies to many religions in Vietnam including the Cao Dai 
Church, whose representatives are back here.
    You see those men and women in white tunic right here 
sitting right here. They set up a bogus Cao Dai Church, 
likewise a bogus Hoa Hao Church--Buddhist Church, so on and so 
forth.
    So it is very imperative that we talk to the right churches 
that are truly independent, that are truly promoting religious 
freedom in Vietnam and not the ones that are set up by the 
government in Vietnam to cover up the abuses against religions.
    Now, I'd like to point out one other thing. Yes, we 
understand that there's a need to balance concerns about human 
rights against other concerns, other strategic priorities of 
national interests of this governance and to the American 
people.
    However, I truly believe that defending the rights and the 
properties, the assets of American citizens, should not be 
trumped by any other national interest. It should be of the 
highest priority for this government.
    Mr. Meadows. Thank you, Mr. Chairman.
    Thank each of you for your testimony and I want to follow 
up a little bit on what you just highlighted, Mr. Sifton, if I 
can.
    You talked about we needed to put an emphasis to 
strengthen, I guess, the priority within the State Department 
where human rights gets the same, I guess, influence that the 
trade side of the State Department gets.
    How will--you know, if you were sitting in my seat how 
would you go about doing that?
    Mr. Sifton. Well, unfortunately, I don't think there's any 
mechanical way to do it. But every time a House member a set of 
members or a hearing asks tough questions and pushes on the 
State Department, it reverberates around their offices in ways 
that perhaps you never get any feedback on.
    But I do know that the pressure gets to them and gets under 
their skin, and when there are questions about the human rights 
priorities not getting enough prioritization, it has an effect 
on the prominence that the trade part of the package is given--
a negative impact. It just does.
    The problem is there are a lot of incentives behind that. I 
mean, there's an enormous amount of money at stake and huge 
amounts of added profits that would accrue to Vietnamese 
business interests as well as American if GSP, for instance, 
goes forward.
    So on that side you have a lot of incentives that are 
financial and on the other side what you have is civil society 
and religious groups and human rights groups, and although 
they're well organized and fervent and devoted, they just don't 
have the same amount of resources.
    If you look at the comments from the GSP in 2008 that were 
solicited by the USTR, the majority of them are from 
corporations and trade groups and things like that and only a 
few are from civil society. That tells you----
    Mr. Meadows. Are you suggesting that corporations aren't 
civil society?
    Mr. Sifton. What I mean is we will do our best but at the 
end of the day I think Congress will play a huge role in 
balancing the equation so that human rights are prioritized 
just as much because the 3-day to 1-day ratio is----
    Mr. Meadows. Right.
    Mr. Sifton [continuing]. Obviously inappropriate, given the 
severity of the abuses that are underway.
    Mr. Meadows. So are you saying that what the chairman 
pointed out in the 1-day versus 3-day priority that that is 
systemic?
    Is that something that you've seen over and over again, not 
just with Vietnam but with other countries where human rights 
abuses still occur?
    Mr. Sifton. It's certainly a problem worldwide but I think 
rather than focus on pushing each of the sides of the State 
Department as--to balance it out there's another issue that 
needs to be discussed too, which is that there is a one-
government policy in the administration.
    In reality, according to the policy, the U.S. Trade 
Representative is supposed to raise human rights issues. That's 
how it's supposed to work now.
    Every part of the U.S. Government, from the Commander in 
Chief of the Pacific Command to the U.S. Trade Representative 
to a visiting Under Secretary for who knows what who goes into 
Hanoi is supposed to raise human rights concerns in the context 
of whatever it is their dialogue is about.
    Unfortunately, that often doesn't happen as much as it 
needs to.
    Mr. Meadows. Well, Chairman Royce pointed out earlier that 
maybe it does get raised but what the State Department is 
reporting back is that everything is looking rosy and that 
according to your testimony is not happening.
    Mr. Sifton. I don't think they say it's looking rosy but 
definite--because let's be honest about that. The Embassy does 
put out statements and is pretty good and the rights report was 
pretty tough hitting. But in the grand scheme of things, no, 
the message is not coming back about the severity.
    There is a deteriorating situation. It's not just another 
bad year in Vietnam. We have a trend line going down. More 
people going to jail, closing space, more and more tension.
    The economic concerns are obviously causing instability and 
then last but not least this land crisis--as land gets taken 
away in increasing amounts of hectares it's going to cause more 
and more unrest and that's going to have repercussions.
    Mr. Meadows. Well, with that trend trending down, I mean, 
would you say that that's due more to civil unrest or 
government enforcement?
    Mr. Sifton. It's probably a perfect storm both of folks 
speaking out more but the government becoming more sensitive at 
the same time. So it's kind of both sides are amplifying their 
actions and it's going to cause further intensification.
    I mean, we've already gotten to 50 convictions this year. 
That puts us on par for about 120 by the end of the year----
    Mr. Meadows. Right.
    Mr. Sifton [continuing]. Which is an exponential increase 
since last year in political show trials.
    Mr. Meadows. So let's go--and this is for the entire 
panel--let's talk a little bit more because each one of you 
have highlighted about this confiscation of land.
    When they do that, when the government takes this land what 
do they do with it? Are they making money on it? Do they sell 
it to somebody? I mean, what happens?
    Mr. Thang. I can see two major reasons for the act of 
confiscating properties of Vietnamese people inside Vietnam of 
the different churches or that would have an impact also on 
Vietnamese-Americans.
    The first one is corruption, greed. They want to take away 
land from the poor farmers to sell it back to developers and 
making a lot of money. They're paying dirt cheap for what they 
took and they're selling the land back to developers, like, 300 
to 400 times more expensive.
    Mr. Meadows. Alright. So greed is----
    Mr. Thang. That's one. And also they're using that as a 
tool for suppression, especially against the independent 
churches such as the Catholic Church, the Protestant Churches. 
If you don't have land--you have property they evict you from 
your own parish there's no way for that church to continue to 
function.
    That applies to the Khmer Krom Buddhist Church. That 
applies to the Cao Dai Church and the Hoa Hao Buddhist Church. 
It's across the board. So land confiscation has been used as a 
tool for persecution against the churches.
    Mr. Meadows. So it's basically, say, if you do it our way 
then we'll let you keep your land. If you don't do it our way, 
we're going to take it away and there's always that threat. So 
they essentially have compliance because of the threat of 
taking it away. Is that correct?
    Mr. Thang. That's pretty much the case, Congressman.
    Mr. Meadows. Alright.
    Ms. Ngo. I think the government claimed that the government 
owned the land and the owner of the land just has the right to 
use it only.
    Mr. Meadows. Right. So they own it and they give you a 
permit to be able to farm it or whatever----
    Ms. Ngo. Yes.
    Mr. Meadows [continuing]. And so it's taking away that 
permit so it's not actually confiscating the land but just the 
right to make a living on that land?
    Ms. Ngo. Yeah. You rent the land for 20 years and after 20 
years the government can take it back because they are the 
owner.
    Mr. Meadows. Alright. So do they--do they always keep 
that--if they limit it to you for 20 years will they let that 
term expire or they'll break the lease?
    Ms. Ngo. Well, after 20 years if the owners obey and follow 
the rules----
    Mr. Meadows. So if they are compliant.
    Ms. Ngo. Yeah, compliant then they may extend the lease.
    Mr. Meadows. I see the Doctor is shaking his head.
    Mr. Thang. Well, in 2003 the same--they also issue a law, 
pass a law, the Land Law of 2003 allowing the government to 
recover--that's what they call it--recover the land that had 
been assigned to the people to use.
    Even though they might--the people have the right to use 
land but through the recovery process the government can take 
back, and that land law would allow the government to use 
coercion and force to recover the land from the people.
    Mr. Meadows. Okay.
    Mr. Sifton. I just want to explain there is a--the crisis 
is brewing precisely because a lot of the leases I guess you 
would call them were given 20 years ago and are now coming up 
all at once right now.
    Mr. Meadows. So that's part of this perfect storm is is 
that we're right here and they're about to be able to decide 
who goes forward and who doesn't and----
    Ven. Tol. I would like to inform the committee that even in 
my village where I was born there's a confiscation of land of 
the Khmer Krom temples. The confiscation of land is the 
government used that land in order to build schools and a 
public school for the students.
    And then the followers of the temples was not able to 
demand a return of the land back to the temple for fear of 
persecution and arrest, and the use of the lands is for other 
purposes.
    The question is we would like to ask the committee to help 
us and to demand the government to return the land back to the 
temple. Thank you.
    Mr. Meadows. Thank you. Let me finish with this and I'm 
going to yield back to the chairman after this--after I ask for 
your help on something.
    We've had a number of hearings here and as we have had 
these hearings one of the things that continues to come out is 
that the abuses are getting worse, not better.
    We are continuing to see over and over abuses that we would 
not tolerate in our country and yet Vietnam has kind of for a 
large part gone underneath the radar in terms of being 
highlighted as a particular area of concern even though, 
obviously, it is.
    Because of the TPP and because of the request for the GSP 
right now, we're in a unique position to start to really 
highlight these human rights abuses. The perfect storm, as Mr. 
Sifton had talked about on other issues, I think we have a 
perfect storm right now as it relates to Vietnam.
    They can make a choice to go forward and prosper 
economically in ways that they have never even imagined or they 
can continue the human rights abuses that we're seeing in--not 
only in this hearing but also in a previous hearing that--if 
they continue that.
    I can tell you there are a number of members who are 
willing to say no, who are willing to say that we are not going 
to go with a TPP. We're getting lobbied on both sides already.
    The message needs to be clear back to their government that 
it is not a slam dunk. It is not something that is inevitable. 
But for me and many of my colleagues human right abuses are 
critical--a critical component.
    There will not be a negotiation on economics only. It has 
to have a human rights aspect and the more than you can send us 
in terms of real stories, in terms of abuses--the pictures you 
showed today are a powerful testimony of what's happening 
currently. You know, this is not years ago.
    It's happening today, and we have to say enough is enough 
and stand by those who perhaps do not have a voice. I thank 
each of you for coming today and being that voice and I look 
forward to working with you to please get that to the committee 
and they will forward it on to us so that we can tell your 
story better.
    Thank you, and with that, Chairman, I yield back to you, 
Mr. Weber.
    Mr. Weber. Thank you, Mr. Meadows, and I will go to my 
colleague on the right, Steve Stockman.
    Mr. Stockman. Always on the right. I have a quick question.
    When I was there in Saigon, I was--I travelled outside and 
they had a very Western style suburban homes that American-
Vietnamese were purchasing and I think they were purchasing 
them in cash, and they were very expensive even by American 
standards--$200,000, $300,000.
    I guess, Dr. Thang, how can those houses be--is that one of 
the reasons driving the confiscation of the land the 
development of suburban type homes there?
    Mr. Thang. There are a number of reasons. That's one of the 
reasons. For instance, in the case of Con Dau Parish who are 
Catholic, they are a 135-year-old Catholic parish. In 2010, May 
2010, the government of Da Nang City sent troops, hundreds of 
troops and tried to evict an entire village.
    They took over the village and the lands and turned that in 
an eco-tourism development project to be sold back to others--
investors.
    So that could be one of the reasons but there are many 
other reasons. As mentioned before in my testimony, 
confiscation of land has been used consistently, repeatedly, 
routinely as a tool of persecution against the churches, the 
independent churches.
    So sometimes the land doesn't have much value. Still, the 
government confiscates it just to push the church out and 
exterminate its existence. Without property, without an 
infrastructure, the church cannot exist anymore.
    Mr. Stockman. I went to the Catholic Church there in Ho Chi 
Minh.
    Mr. Sifton, I have a question. It's a little bit of a 
tangent. But how are the Vietnamese Government treating the 
government and the people of Laos?
    Mr. Sifton. That's a difficult question that our research 
doesn't go into. But I would focus, again, on the land 
confiscation and just broaden out from something you said, 
which is it's something which is affecting really all parts of 
society but it's also affecting all the countries in the 
region, including Laos and Cambodia next door.
    And it might be useful to look at this not just from a 
Vietnamese perspective but look at it from the perspective of 
the Asian Development Bank and the World Bank funding projects, 
infrastructure projects--roads, water projects, other projects 
across this whole region, all of which involve moving people 
out of their homes and all of which involve the government 
being responsible for doing that work.
    And in all of these countries--Vietnam, Cambodia, and 
Laos--there are these problems with land confiscation. It's 
just that in Vietnam there is absolutely no capacity to fight 
back and not be crushed by the authoritarian regime.
    Mr. Stockman. How come they don't combine the two 
delegations? I mean, that would make sense to me. No? Okay.
    Well, my question to follow up, I guess, is you talked 
about bloggers being caught. What kind of technology does 
Vietnam have to catch the bloggers and is it sold by American 
companies?
    Mr. Sifton. Yeah, that's a very, very good question. There 
are two things going on here. There's filtering, which is not 
so much where the bloggers get caught but just Vietnamese Web 
sites are blocked and can't be accessed from ISPs, from 
Internet service providers, inside of Vietnam.
    That blocking is becoming increasingly sophisticated. It's 
still not very sophisticated if you compare it to China, but 
it's getting better.
    The software and the hardware that's required for that is 
coming from a panoply of companies, some in Europe, some in 
China, and there are--we don't know directly whether U.S. 
companies have sold directly to the Vietnamese Government.
    But we do know that there are U.S. companies which 
manufacture software that the Vietnamese Government potentially 
would be interested in, which is why we supported efforts in 
Congress to introduce a licensing structure for software that 
can be used both for filtering and for identifying bloggers and 
other Internet users.
    This is basically software that can be used by authorities 
to either intercept communications and determine things about 
the users or software that can be used for filtering, for 
blocking sites.
    It would be a great idea if Congress passed a law that 
licensed the export of that software to make sure it doesn't 
fall into the hands of governments like Vietnam's.
    Mr. Stockman. Well, I have a question which you may or 
may--it may not be your expertise but what's the percentage of 
coffee that is bought by Starbucks from Vietnam?
    Mr. Sifton. I can't answer that.
    Mr. Thang. Well, we don't know. We don't have those 
statistics. However, there is--it's a widespread practice in 
Vietnam for the Vietnamese Government to confiscate land 
especially lands of the Montagnard because they live in high 
elevation areas.
    Mr. Stockman. Right.
    Mr. Thang. And that's very good conditions to grow coffee 
and that's why many Montagnard at our village have been 
displaced to be turned the land, their land, ancestral land, 
that they lived on for hundreds of years. Of course, they don't 
have any title to their land and they have been pushed away 
from that ancestral lands across Central Highlands.
    Mr. Stockman. May I make a recommendation to your 
community? We have in this country just a large number of news 
outlets and information, a number of cable stations and you get 
information overload, and like light that's dispersed it only 
works when you focus the light and it can cut metal.
    And I would tell you this. I think--you can correct my 
statistics on this--but I think Starbucks buys a large amount 
of coffee from Vietnam, and if you want to highlight your 
activity just a suggestion--I know how much trouble I'm going 
to get for this--but I think you ought to focus your efforts in 
communicating that and that they bring economic activity 
bearing down on the company that's doing business with Vietnam.
    They and the Vietnamese Government understand money and I 
think that if we could somehow communicate that through that 
aspect I would just make a recommendation that you can apply 
pressure and the American companies will listen, and I will 
check those statistics but I believe it's fairly high.
    I know that the beans in Vietnam are a little bit more 
bitter than some of the other beans around the world but they 
still make up a blend in the Starbucks coffee.
    That's just my own personal take on it and--but I 
appreciate you guys coming out and I really am very grateful 
that you give us suggestions.
    All of you have gave us suggestions and many panels don't 
do that on what we can do and I appreciate you extending to us 
advice.
    Mr. Sifton, also you've given us good advice on the 
software and you've also given us advice and all of you. I 
appreciate it, and we are very much in sympathy with you and we 
appreciate you taking the risk coming out here because I know 
that extended families could be persecuted for your stance and 
I appreciate your bravery coming out.
    And I yield back the balance of my time. Thank you very 
much.
    Mr. Weber. Thank you, Mr. Stockman. Golly, let me follow up 
on what he just said, then I'll yield to Mr. Rohrabacher here 
in a little bit, give him a minute to catch up.
    While he was talking about Starbucks I did a Google search 
on their Web site and found that they have a chairman's report, 
and if you want something interesting on their Web site they 
have the following quote:

        ``If everybody says I'm going to change one person at a 
        time before you know it we've changed a neighborhood. 
        We've changed a town. We've changed a city. We've 
        changed the nation.''

    You might think about getting a hold of Starbucks, follow 
up on what Congressman Stockman said and say, you know, you 
guys are buying coffee, and maybe they could bring--they could 
bring some pressure to bear.
    Maybe they'll wake up to that fact. I have a couple 
questions for you myself that I'd like to--and I don't know who 
to direct it to. Perhaps you, Mr. Sifton, or maybe Dr. Thang.
    Is it--how many registered churches--you all talked about 
churches being registered and then the government registers 
fake churches. How many churches would you say are registered 
and then write them down for me.
    Mr. Thang. I don't have the statistics on hand but I know 
that from the last count there were not more than scores of 
churches that have been registered compared to hundreds that 
have not been allowed to register.
    Mr. Weber. Okay. And is there an underground church 
movement?
    Mr. Thang. That's what this is called for the Protestant 
Church, for instance. That's called the house churches and they 
are being persecuted severely because the government doesn't 
want the spread of house churches that they cannot control.
    Mr. Weber. Would you hazard a guess? Is it 100,000, 10,000, 
1,000,000?
    Mr. Thang. Followers? Yes. I would say at least a few 
hundred thousand of the members of the house churches that are 
underground.
    Mr. Weber. Okay. And forgive me, I don't know, but how many 
people--what's the population of Vietnam?
    Mr. Thang. It's about 90 million.
    Mr. Weber. 90 million. Okay. Victims of human trafficking--
do they have a really big problem with human trafficking?
    Mr. Thang. I think that Vietnam is the only country in the 
world that we know of where the government officially runs a 
trafficking ring through the labor export program.
    Mr. Weber. That's what I figured. What international 
organizations are there that have really taken that cause up 
and are trying to bring attention to it?
    Mr. Thang. There is the IOM, the International Organization 
of Migration, and they are funded by our own State Department 
to do anti-trafficking work in Vietnam. However, they may not 
have access to victims to assist, especially if those victims 
become victims under the government----
    Mr. Weber. The official government----
    Mr. Thang [continuing]. Labor export program.
    Mr. Weber. Sure.
    Mr. Thang. So far, they have not been able to serve too 
many if at all victims under the program. So they are not 
allowed by the Government of Vietnam to access the victims to 
provide the services.
    Mr. Weber. How large is the Vietnamese population in the 
United States?
    Mr. Thang. There are about 1.6 million Vietnamese-
Americans.
    Mr. Weber. 1.6 million. And where would you say the largest 
concentration is?
    Mr. Thang. I think that's in the district of Congressman 
Rohrabacher.
    Mr. Weber. Okay, which is why he's here, by the way. Let me 
say it this way.
    How often does that population get involved in petitioning 
the State Department or demanding some action? Is this--do they 
do it on a monthly basis? Is there a concerted effort?
    Mr. Thang. Yes. There has been a concerted effort. For 
instance, last year in March we launched a major campaign to 
the White House asking the President not to neglect human 
rights when his administration engages the Vietnamese 
Government in trade negotiations and unexpectedly we obtained 
about 150,000 signatures. We expected only 30,000 and the 
response was overwhelming--150,000 signatures.
    Mr. Weber. Well, that was a petition but how about a march 
or an activity where they show up at the White House? Any event 
being planned?
    Mr. Thang. Yesterday, there was a delegation of 150 of us 
at the White House.
    Mr. Weber. Right.
    Mr. Thang. Last year we also came to the White House, a 
very big delegation of 150 or 160 Vietnamese-American advocates 
from across the country that came to the White House last year 
and we returned to the White House just yesterday.
    Mr. Weber. I notice from just a little bit of research that 
David Shear, the Ambassador to Vietnam, apparently speaks 
Chinese and Japanese.
    Has he been brought into the conversation? Are people going 
to him and saying Mr. Ambassador, you know, you are our, I 
guess, head guy from the United States, head diplomat. Has he 
been made aware of this?
    Has there been a conversation with him that highlights this 
problem? Who does that?
    Mr. Thang. Well, I personally talked to him and pointed to 
him that all the convictions that the Vietnamese Government has 
claimed so far--for instance, against the traffickers--only 
involve the small fish sex traffickers.
    No prosecutions so far against the big fish that involves 
the government, the systemic problem of labor trafficking under 
programs run by the government, and Ambassador Shear did 
acknowledge that.
    There were zero prosecutions against labor traffickers and 
that was last year.
    Mr. Weber. Did you raise the issue of the State 
Department's report and what did he say about that?
    Mr. Thang. I raised it many, many times with the State 
Department, with his office, and they said that well, that's 
according to their own data.
    We make the request that they should intervene people like 
the Venerable Danh Tol right here because we have legal team--a 
legal team in Thailand working to help to protect refugees who 
are fleeing out of Vietnam because the increasing persecution 
against political dissidents, against religious leaders, 
against bloggers.
    So we have victims who have been resettled in the U.S. so 
we are more than willing to provide them to the State 
Department to intervene and to collect information directly 
from the horse's mouth.
    But so far there has been no intention or effort to talk to 
the victims who know very much about what's going on on the 
ground.
    Mr. Weber. Zero interest on the part of the State 
Department?
    Mr. Thang. We have seen zero interest so far.
    Mr. Weber. Who is Vietnam's largest trading partner?
    Mr. Thang. I am not sure about that, but the U.S. is ranked 
among the top.
    Mr. Weber. Mr. Sifton, would you know?
    Mr. Sifton. The United States is Vietnam's largest export 
market. As for informal trade across the Chinese border, a lot 
of it's not magnified so it's very difficult to know for sure 
about overall trade. But the U.S. is their biggest overseas 
export market.
    Mr. Weber. And what's the number-one economic enterprise in 
Vietnam?
    Mr. Sifton. That's tough. I mean, look, I think in terms of 
the exports; the ones to focus on with Vietnam are seafood and 
clothing--textiles and finished clothing.
    Mr. Weber. I guess my question is have you identified those 
companies that do business with Vietnam and of the 1 million 
plus Vietnamese that are here are we putting pressure on those 
companies not to buy products from slave labor, for example?
    Mr. Sifton. Here's the thing. When I think about what the 
regime would be most impacted from it would certainly be the 
case the Vietnamese tycoons would be upset if trade preferences 
weren't extended and the export market didn't grow as fast as 
they wanted it to and it might have an impact and they would 
then pressure their friends in the Politburo and so on and so 
forth.
    But when I think about a more direct pressure I just simply 
think that the Vietnamese military wants to buy lethal hardware 
from the United States military and the Pentagon is in fact 
holding the keys to the kingdom in terms of incentivizing them.
    And so far they've resisted that and there is no such 
lethal aid going to them. But they are the ones who are 
standing at the gatepost and the threshold and are the ones who 
can bring the message better than any U.S. corporation can 
about what Vietnam needs to do in order to get what it wants.
    Mr. Weber. Does the Vietnamese Government respect 
intellectual property rights or are they more like the Chinese 
Government in that regard?
    Mr. Thang. No, sir. I went to Vietnam long ago and I came 
back with bootlegged pirated products of the U.S. and we 
continue to raise this issue with our own U.S. Trade 
Representative multiple times.
    There's no true respect of intellectual property rights in 
Vietnam. There's a lot of bootlegged application software in 
Vietnam.
    You can buy for $5 a DVD with all sort of applications from 
Microsoft, for instance, very cheaply inside Vietnam and there 
are so many DVDs produced by entertainment industry basing out 
of Orange County and there are bootlegged copies almost 
overnight. Millions of copies sold in Vietnam----
    Mr. Weber. Okay.
    Mr. Thang [continuing]. Illegally.
    Mr. Weber. Alright. Thank you.
    Mr. Rohrabacher, I'm going to yield time to you now.
    Mr. Rohrabacher. Thank you very much and let me just note 
that I do represent a very large contingent of patriotic 
Americans who happen to trace their roots back to Vietnam and 
perhaps some of the most patriotic Americans because unlike 
their fellow citizens they know what it's like not to have 
freedom and they also know first hand what is going on and what 
evil the tyrants are doing to other people in their ancestral 
homeland even as they succeed and become a more important part 
of the American system here in our American scene.
    I'd like to ask the panel this question about the 
Vietnamese community and are you recommending--just give me a 
very short answer please because I want to get this from all of 
you--are you recommending that we limit the amount of money 
invested in the Vietnamese economy by American capitalists?
    Should we--or is this something that we should be--some 
people think we should encourage in that type of investment, 
and just give me a very short answer for each one of you, 
please.
    Mr. Thang. I'll go first. It should be conditioned on 
promoting human rights conditions in Vietnam.
    Mr. Rohrabacher. So we should not be encouraging them 
unless----
    Mr. Thang. Unless.
    Mr. Rohrabacher [continuing]. There are major human rights 
concessions?
    Mr. Thang. Exactly.
    Ms. Ngo. I agree with that.
    Mr. Rohrabacher. Okay.
    Ms. Ngo. We should put the condition of human rights before 
we invest more money to Vietnam.
    Mr. Rohrabacher. Alright.
    Ven. Tol. I agree with the position of the other panel with 
the exception that the other countries should put more 
pressures on Vietnam to tie the economic tie--that economic 
prosperity to the human rights.
    Mr. Sifton. I don't think there are any investment 
restrictions right now. But one thing that I assume U.S. 
apparel and other suppliers and buyers would be interested in 
is loosening the trade preference rules that would basically 
allow Vietnamese goods to be even cheaper and imported into the 
U.S. and they would like that, and they--and as the co-
panelists have said, it would be a good idea to put human 
rights restrictions on that.
    But I continue to believe that the bigger incentive to the 
regime to change is on the military front. That is the one 
area----
    Mr. Rohrabacher. We'll talk about that in a minute. Okay. 
So your answer is what?
    Mr. Sifton. The GSP seems like a nonstarter right now. The 
Trans Pacific Partnership is floundering. There's a bilateral 
investment treaty which is----
    Mr. Rohrabacher. So we should not or should we encourage 
the American----
    Mr. Sifton. None of those things should go forward without 
stringent human rights standards.
    Mr. Rohrabacher. Alright.
    Mr. Sifton. None of them.
    Mr. Rohrabacher. Considering the fact that those human 
rights standards aren't in existence now are you telling the 
American people not to buy products that say made in Vietnam? 
Right down the line. No, no, let's start over here.
    Mr. Thang. Well, what I'd like to point out it cannot be a 
short answer about----
    Mr. Rohrabacher. It's got to be because I want everyone to 
comment on it. Do you want people--if the answer is yes, they 
should be able to--they should go ahead and buy or no, that's--
it's one or the other. I mean, you can't have it both ways.
    Mr. Thang. It depends. For instance, cashews, for instance. 
Human Rights Watch came out with their good report on cashews 
being produced using forced labor massively in Vietnam. So we 
are against buying cashews from Vietnam.
    Mr. Rohrabacher. Cashews?
    Mr. Thang. Yes.
    Mr. Rohrabacher. You mean as in nuts?
    Mr. Thang. Nuts.
    Mr. Rohrabacher. Okay. And so you think that we should--
they should go product by product?
    Mr. Thang. Yes.
    Mr. Rohrabacher. How about clothing?
    Ms. Ngo. Clothing--if I go to Sears or Macy and I see the 
clothes made in Vietnam I won't buy them.
    Mr. Rohrabacher. What about you? Clothing?
    Mr. Thang. I don't buy my own clothes, actually.
    Mr. Rohrabacher. Alright. You're going to dodge that 
question. This guy doesn't have to worry about clothing here.
    Ven. Tol. All the products I'm wearing are not made from 
Vietnam so we're not buying a product from Vietnam, period.
    Mr. Rohrabacher. Okay. And what are you recommending? Don't 
buy--don't buy the suit? Buy the cashews or don't buy the 
cashews or----
    Mr. Sifton. Cashews are a special case because forced labor 
was involved.
    Mr. Rohrabacher. Okay.
    Mr. Sifton. But no, I don't think boycotts usually are 
effective and----
    Mr. Rohrabacher. Okay. The answer is just go right ahead 
and buy that Vietnamese product even though there's no unions 
that are permitted, even though if they tried to have a strike 
they'd be beaten down and arrested.
    Mr. Sifton. I'd rather have that raised by the U.S. Trade 
Representative than by the American consumer because I don't 
think the American consumer has the might to actually make it 
impact Vietnamese----
    Mr. Rohrabacher. Well, we can see how much that influence 
with our Government wading in on the side of freedom has had 
such an impact in China over the years with all of the freedom 
they have there now.
    But, again, but there's been some American companies that 
have made a lot of good money off that lack of freedom in 
China. I don't think we should continue that trend in Vietnam.
    The Vietnam regime has learned that if they loosen the 
chains a little bit around the necks of their slaves, of their 
prisoners, that they'll get more work out of them if they 
loosen the chains a little bit.
    I don't think that we should be buying products from a 
country that has their population in chains. We should be for 
eliminating the chains that bind the people of Vietnam and 
elsewhere.
    So there's--and let us note there has been all this 
optimism that more--as in China we all thought well, with more 
prosperity there's going to be more freedom. And what have we 
heard today and I've been listening in off and on all day and 
there is not more freedom.
    There has actually been a crackdown and a decrease in the 
level of freedom in recent years. And so that theory that we're 
going to have the World Trade Organization bureaucrat come over 
and have a nice cup of tea with the Communist Party boss that 
overseas the--you know, the conditions of labor in his country, 
that's not going to work.
    We've--back to the Internet freedom issue here, I think it 
is despicable that we have high-tech American companies 
providing technology and know-how that will permit 
dictatorships like Vietnam to track down dissidents.
    This is--again, but if we just have this idea well, we can 
buy and sell and deal with them just like we're talking about 
dealing with Belgium or someplace like that, well, that doesn't 
work to further the cause of freedom or do you disagree with 
that?
    Mr. Sifton. No. I think Congress should definitely consider 
the current pending legislation to license the software--this 
type of software for the filter. These softwares have 
legitimate purposes in the abstract for law enforcement, for 
filtering child pornography.
    The problem is if you put them in the wrong hands----
    Mr. Rohrabacher. That's right, and I would suggest that 
what we've seen in recent years is a crackdown on Internet 
freedom. I've been to hearings.
    We've heard about that today--a crackdown on the very piece 
of technology that we were assured would bring a liberalization 
to countries like Vietnam and China and we also have seen a 
crackdown on religious freedom at a time when we were told, 
well, Communism will outlive this.
    They don't--you know, they will--there will be a new era 
because the Communists will wake up and they will no longer be 
Communists because we will have hugged them and made them 
friends of ours and patted them on the back and ignored all the 
fact that they're killing their neighbor's dog or they're 
beating up on their neighbor's children or they're suppressing 
demonstrations in the street or they're putting people in work 
camps or they're taking religious believers and destroying 
their churches in the Central Highlands, et cetera, et cetera.
    No, we can ignore all of those things that show that you 
got brutal people who hold power in Vietnam--brutal tyrannical 
people who still oppress the population of Vietnam after all 
these years.
    I'm very grateful that the Vietnamese-American community is 
educating us to this important stand that we as a nation must 
make.
    We need to be on the side of those who long for freedom and 
oppose their tyrants who oppress them. And thank you for your 
testimony today. We will continue working in this.
    Mr. Weber. Thank you, Mr. Rohrabacher.
    That seems like a good note to end on. This subcommittee 
hearing is adjourned.
    [Whereupon, at 5:02 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



               <F-dash>\\<careof><Rx><brit-pound>t<box>s\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


        <F-dash>\<bell><bullet><brit-pound><variable><box><Rx> 
      <triangle><careof><Rx><star> <func.-of><star>a<Rx><bullet> 
                     <F-dash><func.-of><Register>\

    Material submitted for the record by Nguyen Dinh Thang, Ph.D., 
                  executive director, Boat People SOS

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
